U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 28, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Renado Smith and Richard Delancy v. United States, No. 19-36 1
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
18, 2019. The government's response is now due, after one extension, on November 18, 2019.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to
and including December 9, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-036 1
SMITH, RENADO, ET AL.
USA

MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
1 E. BROWARD BLVD.
SUITE 1100
FT. LAUDERDALE, FL 33301
THOMAS C. GOLDSTEIN
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
TG@GOLDSTEINRUSSELL.COM
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM
ALBERT Z. LEVIN
ALBERT Z. LEV]IN, P.A.
COURTHOUSE CENTER
40 N.W. 3RD STREET
SUITE 200
MIAMI, FL 33128

KEVIN B. MUHLENDORF
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-7052
KMUHLENDORF@WILEYREIN.COM
MICHAEL ROBERT UFFERMAN
MICHAEL UFFERMAN LAW FIRM, P.A.
2022-1 RAYMOND DIEH ROAD
TALLAHASSEE, FL 32333
850-386-2345
DANIEL WOOFTER
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
DHWOOFTER@GOLDSTEINRUSSELL.COM

